<html>
<title> - NOMINATIONS OF HON. RUTH Y. GOLDWAY AND TONY HAMMOND</title>
<body><pre>[Senate Hearing 107-832]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-832
 
          NOMINATIONS OF HON. RUTH Y. GOLDWAY AND TONY HAMMOND
=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                 ON THE

      NOMINATIONS OF HON. RUTH Y. GOLDWAY AND TONY HAMMOND TO BE 
              COMMISSIONERS OF THE POSTAL RATE COMMISSION

                               __________

                            OCTOBER 8, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs







                           U.S. GOVERNMENT PRINTING OFFICE
83-481                        WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001














                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 THAD COCHRAN, Mississippi
THOMAS R. CARPER, Delaware           ROBERT F. BENNETT, Utah
JEAN CARNAHAN, Missouri              JIM BUNNING, Kentucky
MARK DAYTON, Minnesota               PETER G. FITZGERALD, Illinois
           Joyce A. Rechtschaffen, Staff Director and Counsel
                Jennifer E. Hamilton, Research Assistant
                Nanci E. Langley, Deputy Staff Director,
  Subcommittee on International Security, Proliferation, and Federal 
                                Services
              Richard A. Hertling, Minority Staff Director
               Johanna L. Hardy, Minority Senior Counsel
           Ann C. Fisher, Minority Professional Staff Member,
  Subcommittee on International Security, Proliferation, and Federal 
                                Services
                     Darla D. Cassell, Chief Clerk















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
Prepared statement:
    Senator Bunning..............................................     9

                               WITNESSES
                        Tuesday, October 8, 2002

Hon. Christopher S. Bond, a U.S. Senator from the State of 
  Missouri.......................................................     1
Hon. Ruth Y. Goldway, to be a Commissioner on the Postal Rate 
  Commission.....................................................     3
Tony Hammond, to be a Commissioner on the Postal Rate Commission.     4
Hon. Hillary Rodham Clinton, a U.S. Senator from the State of New 
  York...........................................................     5

                     Alphabetical List of Witnesses

Bond, Hon. Christopher S.:
    Testimony....................................................     1
Clinton, Hon. Hillary Rodham:
    Testimony....................................................     5
Goldway, Hon. Ruth Y.:
    Testimony....................................................     3
    Biographical and professional information....................    10
    Responses to pre-hearing questions...........................    18
Hammond, Tony:
    Testimony....................................................     4
    Biographical and professional information....................    29
    Responses to pre-hearing questions...........................    36

                                Appendix

Hon. Dianne Feinstein, a U.S. Senator from the State of 
  California, prepared statement.................................     9














          NOMINATIONS OF HON. RUTH Y. GOLDWAY AND TONY HAMMOND

                              ----------                              


                        TUESDAY, OCTOBER 8, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Committee will please come to order. I 
want to thank our colleagues and our guests for being with us 
today.
    This morning, we are considering the nominations of Hon. 
Ruth Goldway and Tony Hammond, who are nominated to serve six-
year terms as Commissioners of the Postal Rate Commission. We 
are pleased to have this morning my friend, Senator Bond, who 
will introduce Mr. Hammond. I understand that Senator Clinton 
will arrive shortly to introduce Ms. Goldway, however, we will 
continue until she arrives.
    Senator Bond, we really appreciate your coming and taking 
time before this hearing to introduce Mr. Hammond. I know you 
have lots to tell about him, so you may proceed.

TESTIMONY OF HON. CHRISTOPHER S. BOND, A U.S. SENATOR FROM THE 
                       STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman. I really 
appreciate the honor of being able to join you today to present 
my good friend and fellow Missourian, Tony Hammond, for 
consideration for appointment as Commissioner of the Postal 
Rate Commission. As I was saying to Tony, the Postal Rate 
Commission is the creature that we love to hate. As we are 
bombarded with letters and e-mails complaining about the post 
office and the rate increases, at least there are now friendly 
faces that we can put on that when we respond indignantly about 
the high cost of postal service.
    Nevertheless, the Congress did establish the Postal Rate 
Commission and gave them very important powers. This is a 
significant responsibility, one that is very necessary for the 
commerce of the United States, and I think Tony Hammond, who 
was nominated by the President this past April, is well 
qualified to handle those responsibilities.
    Tony was born in Hickory County, Missouri, where he still 
owns his family farm. He graduated from Southwest Missouri 
State University in Springfield.
    I first became acquainted with Tony when he served on 
Capitol Hill for 10 years between 1979 and 1989. During that 
time, he worked as Legislative Director for our good mutual 
friend, the late Missouri Congressman Gene Taylor. During Gene 
Taylor's tenure as ranking member of the Post Office and Civil 
Service Committee, Tony Hammond dealt with the many diverse 
issues and interests concerning the U.S. Postal Service rates 
and operation. He had real on-the-job training for the issues 
dealt with by the Postal Rate Commission. He practiced writing 
up the letters that now he is going to have to respond to as a 
member of the Postal Rate Commission.
    Mr. Chairman, I know that you served with and remember the 
late Congressman Taylor during the time he was in the House. 
When I first came to Washington, I roomed with him for a couple 
of months while I was waiting for a house. But if we really 
wanted to spice up the record of this hearing, we could go into 
executive session and I expect the three of us could spend the 
better part of the morning exchanging Gene Taylor stories, all 
with good intent, but I would prefer they be in executive 
session.
    Missouri has produced some very colorful people in its 
history, but Gene Taylor was considered by many to be our 20th 
century Mark Twain and a gentleman who will certainly be 
missed. But I can assure you that his guidance and leadership 
helped train Tony Hammond and prepare him for this important 
post.
    Before being nominated to the Rate Commission, Tony owned 
and was a managing member of T. Hammond Company, a private 
consulting firm based in Arlington, Virginia. He has also 
served as the Senior Vice President of the direct marketing 
firm Feather, Larson and Synhorst and senior consultant to 
Forbes 2000, Inc.
    He has a wealth of experience. He has been a great 
contributor to his community and to our State. He has been a 
friend and loyal servant for a great many. It is a real honor 
today to introduce to you and to give high recommendation to 
Tony Hammond for appointment to be Commissioner of the Postal 
Rate Commission.
    Senator Akaka. Thank you very much, Senator Bond, for your 
personal notes, as well. We really appreciate your statement.
    Senator Bond. Thank you, Mr. Chairman.
    Senator Akaka. Before we proceed further, I would like to 
welcome Commissioner Omas, Chairman of the Postal Rate 
Commission, and Commissioner Covington, the PRC's Vice 
Chairman-elect. I want to welcome you to the hearing this 
morning.
    The Committee rules require that an inquiry be conducted 
into the experience, qualifications, suitability, and integrity 
of a nominee to serve in the position to which he or she has 
been named. The Committee has received all the required 
information on our two nominees. Ms. Goldway and Mr. Hammond 
have provided written responses to pre-hearing questions 
submitted by the Committee concerning issues relevant to the 
position on the Postal Rate Commission. Our Committee staff 
have reviewed all of the information, including the financial 
disclosure reports submitted by the Office of Government 
Ethics.
    Copies of the nominees' biographical information and 
prehearing responses will be included in the record as part of 
this hearing and will be available upon request. Our witnesses' 
financial statements are available for inspection by the public 
in the Committee office, and Senator Cochran and I have 
personally reviewed their FBI background investigation reports.
    The Committee rules require that all nominees be under oath 
while testifying on matters relating to their suitability for 
office, including the policies and programs which the nominees 
will pursue, if confirmed.
    Ms. Goldway and Mr. Hammond, would you please stand and 
raise your right hand. Do you solemnly swear to tell the truth, 
the whole truth, and nothing but the truth, so help you, God?
    Ms. Goldway. I do.
    Mr. Hammond. I do.
    Senator Akaka. Thank you. Please be seated.
    Ms. Goldway and Mr. Hammond, I want to thank you for being 
with us and to congratulate you on your nominations. If either 
of you have anyone you would wish to recognize at this hearing, 
please do so at this time. Ms. Goldway?
    Ms. Goldway. Thank you, Senator Akaka. At this time, I 
would simply like to introduce my husband, Ambassador Derek 
Shearer, who is with me today who has been my partner and best 
friend in all of my life's endeavors, and particularly in my 
public service career.
    Senator Akaka. Thank you very much for being here. Mr. 
Hammond, do you have anyone here?
    Mr. Hammond. Just my nephew, Tracy Hammond of Washington, 
DC is with us here today.
    Senator Akaka. Thank you. Now, we will welcome your opening 
statement or comments that you may have. Ms. Goldway, will you 
please proceed with your statement.

 TESTIMONY OF HON. RUTH Y. GOLDWAY,\1\ TO BE A COMMISSIONER ON 
                   THE POSTAL RATE COMMISSION

    Ms. Goldway. My statement includes a thank you to Senator 
Clinton, so we will--when she arrives shortly. Thank you, 
Senator Akaka and Members of the Committee. Thank you for 
inviting me to appear this morning. I respect and appreciate 
the careful consideration you have given to Postal issues 
during the 4\1/2\ years that I have served on the Postal Rate 
Commission.
---------------------------------------------------------------------------
    \1\ Biographical information and responses to prehearing questions 
from Ms. Goldway appear in the Appendix on pages 10 and 18 
respectively.
---------------------------------------------------------------------------
    And I want to thank Senator Clinton for coming today to 
introduce me. She has provided many kindnesses to me and my 
family over the years and was instrumental in my first 
appointment. For the record, I wanted to note that Senator 
Clinton was instrumental in establishing the first semi-Postal 
stamp, the breast cancer research stamp, which I supported as a 
Commissioner, and she has now been involved in your efforts to 
establish the semi-Postal stamp honoring the September 11 
heroes.
    At my first appearance before this Committee as a Postal 
Rate Commission neophyte, Senator Levin kindly granted me the 
benefit of the doubt regarding my competence, because I had the 
good sense to go to the University of Michigan. [Laughter.]
    Now I am here again, and I come before the Committee today 
with what I believe is a record of accomplishments and 
attention to issues that demonstrate my competence and my 
commitment to the work of the Postal Rate Commission.
    Consistent with my longtime interests in consumer issues, I 
have focused attention on how household consumers are affected 
by the Postal Service with regard to the rates they pay and the 
service that they receive, such as the reliability and value of 
Priority Mail. I have also worked hard to ensure that rates for 
all users reflect an accurate assessment of the attributable 
costs and a fair share of institutional costs.
    Through written opinions, op-ed pieces, supplemental 
testimony, meetings with Congressional and Senate staff, and 
public appearances, I have sought to bring these issues to the 
public and to the Postal Service's attention.
    I am grateful for the opportunity the Senate has provided 
me to serve our country. If you honor me with a second term on 
the PRC, I pledge to work diligently and creatively with each 
of you, your Committee staff, the Postal Service, the mailing 
community, and with Chairman George Omas and my colleagues on 
the Commission to assure the health, vitality, and future of 
the Postal Service. Together, we must plan for its 
transformation into a communications network for the 21st 
Century, while continuing to uphold its unique responsibility 
to bind the Nation, delivering the mail as uniformly as 
possible to every American household.
    Thank you, and I am pleased to answer any questions that 
you might have.
    Senator Akaka. Thank you very much. I want to ask Mr. 
Hammond for your statement. Will you please proceed?

   TESTIMONY OF TONY HAMMOND,\1\ TO BE A COMMISSIONER ON THE 
                     POSTAL RATE COMMISSION

    Mr. Hammond. Thank you, Mr. Chairman. I greatly appreciate 
you and the Committee taking time during this very busy session 
towards the end of Congress for scheduling this hearing, and a 
special thanks to Senator Bond for taking time out of his 
schedule, also, to come and be here today.
---------------------------------------------------------------------------
    \1\ Biographical information and responses to prehearing questions 
from Mr. Hammond appear in the Appendix on pages 29 and 36 
respectively.
---------------------------------------------------------------------------
    In the interest of time, because of your schedule, I 
prepared no special opening statement. I am pleased to be here 
with my fellow Commissioner, Ruth Goldway, and I look forward 
to being able to work with you and the Committee staff on the 
betterment of the Postal Service. Thank you very much for 
taking the time.
    Senator Akaka. Thank you very much for your statement. Ms. 
Goldway and Mr. Hammond, the Committee has three questions we 
ask of all nominees. I ask that you respond to them together.
    Is there anything you are aware of in your backgrounds that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Ms. Goldway. I don't believe there is anything.
    Mr. Hammond. No.
    Senator Akaka. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office for 
which you have been nominated?
    Ms. Goldway. No.
    Mr. Hammond. No.
    Senator Akaka. Do you agree, without reservation, to 
respond to any reasonable summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed?
    Ms. Goldway. I do.
    Mr. Hammond. Yes, most certainly.
    Senator Akaka. Thank you so much for your responses. I have 
a few questions of my own, but before I proceed with the 
question, I want to welcome Senator Clinton. While she is 
catching her breath, I want to introduce her to Tony Hammond. 
We are delighted to have you here, Senator Clinton. We know you 
have a personal relationship with Ms. Goldway and would look 
forward to a statement from you and any introductions you may 
have this morning.

 TESTIMONY OF HON. HILLARY RODHAM CLINTON, A U.S. SENATOR FROM 
                     THE STATE OF NEW YORK

    Senator Clinton. Thank you so much, Mr. Chairman. I am 
delighted and honored to be here and have this opportunity to 
speak on behalf of Commissioner Goldway. She has been nominated 
for a full term to the Commission on which she has served 
honorably and well since 1998. She has been a friend of mine 
for many, many years and she has deep ties in New York, having 
grown up in the city and attended public schools all the way 
through City College.
    She has, as I am sure the record reflects, a remarkable 
array of accomplishments, working at the highest levels as a 
public affairs professional with expertise in consumer issues, 
urban planning, education, and the arts. She has also helped 
protect the consumer as an Assistant to the Director of 
California's Department of Consumer Affairs during the 1970s, 
and served the public as a city council member and Mayor of the 
City of Santa Monica from 1979 to 1983.
    During her tenure on the Postal Rate Commission, she has 
shown a true commitment to improving our mail service for 
household consumers, as well as a commitment to the overall 
effectiveness of the U.S. Postal Service. I express the 
strongest possible support, both as a longtime friend, but 
equally important in this context, as a user of the mail, for 
the Commissioner's nomination, and I thank you, Mr. Chairman, 
for letting me come and make my statement. I apologize for 
being a little tardy today and I look forward to our continuing 
work together. Thank you.
    Senator Akaka. Thank you very much, Senator Clinton, for 
your personal remarks. We certainly appreciate your appearance 
here this morning.
    Senator Clinton. Thank you, Mr. Chairman.
    Senator Akaka. Thank you. I would like to continue with my 
question to Ms. Goldway.
    You are being nominated to a second term as a Postal Rate 
Commissioner. The Postal Reorganization Act of 1970 gives the 
Postal Service a clear mandate to develop innovative, 
effective, and efficient services for the Nation's mail users. 
In this era of expanding Internet use, the Postal Service is 
having to adjust to this cultural shift in order to maintain 
competitive rates and to break even. As a member of the PRC, 
what role do you see the Commission taking in the future to 
ensure the vitality of the Postal Service?
    Ms. Goldway. I think our primary role is to consider the 
innovations in rates and classifications that the Postal 
Service would present to us and to both facilitate those 
innovations and to consider them in the light of the entire 
mailing community so that those innovations work effectively 
for everyone.
    Our responsibility is to look at the entire network of 
communications and how the Postal Service fits into that. So 
when we review these suggested innovations, I think we want to 
make sure that the public's overall concerns are met, not just 
the Postal Service.
    I think we also are very much involved in the discussions 
about the future of the Postal Service, and we have, both in 
the context of written opinions in hearings and in meetings 
such as the summit that occurred in June, provided new ideas 
for the Postal Service to consider with regard to phased rates 
or a non-denominational stamp or ways to provide additional 
information on mailing material that the public might find 
beneficial.
    We are not responsible for the day-to-day operations of the 
Postal Service, but I think in the regulatory role that we 
provide, we can offer suggestions and occasionally leadership 
in how to assist the Postal Service in adjusting to these 
changing markets.
    Senator Akaka. Thank you for your response.
    Mr. Hammond, I am not sure if you have had an opportunity 
to review the transcripts of the two Postal Rate Summits 
convened this summer by the Postal Service and the PRC, but I 
know there was a lively discussion of the use of phased rates. 
What are your thoughts on the use of phased rates?
    Mr. Hammond. Well, I have had an opportunity to look at the 
phased rate issue with regard to the two summits which were 
held, but not in great detail because I was not on the 
Commission yet when those two summits sponsored by the PRC and 
the Postal Service were held. But I know there have been a 
great deal of comments lately, especially from the mailing 
industry, about predictability and stability in the rates.
    I would not want to comment before I actually saw what was 
before us, but indeed, I think that there needs to be further 
discussion of the phased rates. I think it is beneficial for 
dialogue to continue. And while I would not want to say that I 
would automatically go for phased rate increases before we had 
a case before us, I think it is very beneficial to continue the 
discussion on that right now.
    Senator Akaka. Thank you. Ms. Goldway, the Postal Service 
has filed a request for a negotiated service agreement with the 
Postal Rate Commission. What is the time frame for the 
consideration of the NSA and will the PRC handle this case 
differently than other rate cases?
    Ms. Goldway. We are hoping to proceed with this case within 
6 months. I think 180 days is our framework. We believe that we 
can review cases that are discrete in this manner in a shorter 
time frame than we do the comprehensive rate cases, and we 
believe that, at least initially, the outlook is for a 
cooperative discussion and as speedy as possible decision.
    While I do not want to commit to a specific time frame 
because we have obligations with regard to due process and we 
are not yet certain how many parties will intervene in the 
case, it does look like we can review this perhaps in even a 
shorter time frame than the guidelines that we have established 
for ourselves.
    Senator Akaka. Thanks for your response. The Postal Service 
has been criticized for providing inadequate financial data in 
rate cases. Ms. Goldway, you have had an opportunity to decide 
rate cases. What do you believe would assist the Commission in 
its rate case deliberations?
    Ms. Goldway. The crux of our decision making process at the 
Postal Rate Commission is determining what the costs are that 
the Postal Service is incurring so that we can decide on the 
fair rates that are needed. We regularly have disputes about 
the information that is put before us with regard to whether it 
is adequate or sufficient, and there is a great deal of motions 
practice and time involved in requesting more information from 
the Postal Service so that we feel comfortable making decisions 
about costs, and some disputes with some of the parties about 
what is the accurate information that the Postal Service is 
providing.
    I feel certain that if the Postal Rate Commission had 
subpoena power, we could request information from the Postal 
Service, not that we would necessarily use that subpoena power, 
but the indication that we had that power would provide us with 
an opportunity to get the cost information we need more quickly 
with fewer disputes among the parties, and that, in fact, it 
might facilitate decisions that we make and speed the process 
along. So I have been an advocate for a change in the 
legislation that would give us that power to get more 
information.
    Senator Akaka. Thank you. Mr. Hammond, as the Postal 
Service's transformation plan is implemented, there may be 
plant consolidations and post office closings. Would you 
explain the role played by the PRC in decisions relating to 
locating, relocating, or closing facilities?
    Mr. Hammond. There is a specific appeals process to the 
Postal Rate Commission that is in the regulations. There has 
been since the Reorganization Act. One of the things that we 
are responsible for assuring is that all the rules are followed 
in any closings or consolidations. I think because of the 
monopoly situation that the Postal Service has, I think it is a 
very big responsibility for the Postal Rate Commission to 
especially scrutinize that process.
    While we do not have any closing cases before us right now, 
yes, indeed, the transformation plan anticipates possibly that 
being done. It appears to me that the regulations in place do 
adequately cover the potential for a citizen or individuals, to 
ask for the review process by the Rate Commission. But if the 
Postal Service was unresponsive, and I have no indication that 
they would be, but if they were unresponsive, that any further 
regulatory power that the Rate Commission might need could be 
necessary in case that did occur.
    Senator Akaka. I would also ask that question to Ms. 
Goldway, in commenting on the role played by the PRC in 
decisions relating to locating, relocating, or closing 
facilities. We have chatted with the Postmaster General about 
this. As you know, anywhere in the United States, whenever 
folks from the community hear there might be a closing, 
Congress hears from them. So it is a very sensitive matter and 
I thought I would ask you, also, for comments on this.
    Ms. Goldway. Thank you, Senator Akaka. As a former mayor, I 
am particularly interested in this and have thought about it in 
the context of urban planning issues and how important post 
offices can be to the social fabric of the communities that 
they are in.
    I do not believe that the issues about post office closings 
or locations are adequately addressed in the current 
legislation. I am not necessarily seeking power for the Postal 
Rate Commission with regard to more review, but I feel that 
there is not yet an adequate way in which we can both assure 
that post offices of a historical significance or of a 
particularly important social significance to small communities 
are preserved and still give the Postal Service the flexibility 
it needs to consolidate, because I believe it does need more 
flexibility to consolidate and close Postal facilities and to 
place Postal facilities in other institutions that people go to 
more readily.
    So I think this is an issue that needs to be discussed and 
worked on further. I feel that the current legislation, while 
it does provide individual citizens with an opportunity to 
appeal to us if the Postal Service acts improperly within their 
own regulations, we are not given any power to tell the Postal 
Service to change their actions if we determine that they have 
not been appropriate. We simply provide a public forum for 
people's concerns without any avenue for address.
    So I am not sure it is an adequate regulation and 
legislation at the moment, and I would like to work further 
with the Postal Service and with the Congress in considering 
ways that we might address those concerns because I know you 
experience them, as well, in your home State. I think this is 
an issue that the Postal Service is going to have to address 
very quickly in the coming years to save costs.
    Senator Akaka. I want to thank Ms. Goldway and Mr. Hammond. 
Thank you again for your cooperation with this process and for 
being with us today. It has been, I would say, if anything, a 
personal hearing with friends in the Senate and we look forward 
to the confirmation process being completed as soon as we can.
    If there are any further questions, we will certainly send 
them to you for any response.
    I have no further questions for you. I want to thank you 
again for coming and wish you well in all that you do.
    If there is no further business to come before the 
Committee, the hearing is adjourned.
    [Whereupon, at 9:37 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF SENATOR BUNNING
    Thank you, Mr. Chairman.
    This country's mail system is one of the most basic and important 
functions of government. Six days a week, Americans across the country 
rely on their mail carriers to deliver their letters and packages.
    Last year's anthrax attacks showed us how important reliable mail 
delivery is.
    However, the Postal Service is facing some serious financial 
problems that must be addressed in the coming months and the Postal 
Rate Commissioners will play a large part in the Postal Service's 
success as they consider Postal Rate increases.
    Postal Rate Commissioners also have other important duties, 
including investigating complaints by postal customers about Postal 
rates and fees and hearing appeals from Postal customers about the 
closing of their retail post office.
    I hope that you will always keep in mind the affect that closing a 
post office can have on a community--particularly a small, rural 
community, and that this is a decision that should not be made lightly.
    I appreciate the time our two witnesses have taken to be here 
today, and look forward to hearing from them.
                               __________
 PREPARED STATEMENT OF DIANNE FEINSTEIN, A U.S. SENATOR FROM THE STATE 
                             OF CALIFORNIA
    I am pleased to introduce Ruth Goldway to the Committee. Ms. 
Goldway has been nominated by President Bush to be a Commissioner of 
the U.S. Postal Rate Commission and has been serving as a Commissioner 
since 1998.
    Ms. Goldway is married to Professor Derek Shearer and they have 
three children: Julie, Anthony, and Casey.
    Before serving on the Commission, Ms. Goldway traveled with her 
husband to Finland where he served as U.S. Ambassador from 1994 through 
1997.
    I am proud to say that Ms. Goldway has also served the people of my 
State, California:

        <bullet> LMs. Goldway served as Director of Public Affairs at 
        California State University, Los Angeles;

        <bullet> LShe was Assistant to the Director of California's 
        Department of Consumer Affairs where she was a successful 
        advocate on behalf of consumers, women, and urban issues; and

        <bullet> LMs. Goldway was elected council member and Mayor of 
        the City of Santa Monica and served as Founder and Chairperson 
        of the Santa Monica Pier Restoration Corporation.

    Serving as a Commissioner these last four years, Ms. Goldway has 
become well respected not only by her colleagues but by those whose 
businesses are tied to the operations of the U.S. Postal Service.
    Her experience in public and private life has brought an invaluable 
perspective to the complex issues facing the U.S. Postal Service during 
a time of increasing uncertainty. I am confident that Ms. Goldway will 
continue to make significant contributions to the Commission with her 
reasoned judgments on postal rates and service standards.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   - 

</pre></body></html>
